                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGAnONS

                                     CLOSEOUT MEMORANDUM

TO: AIGI             File Number: 189110010                                        Date: 02 March 2002

Subject: Closeout Memo                                                                       Page 1 of 1

                                                                                                               .


          There was no closeout written at the time this case was closed. The following infonnation was
          extracted from the file in confonnance with standard closeout documents.

          Our office was infonned that the subject l was alleged to have committed other illegal acts. The
          subject accepted voluntary exclusion until a specified date2 rather than have a debarment hearing.
          The investigation report and its resolution are attached as part of this closeout.

          Accordingly this case is closed.




      I   Dr. Dennis R Rasmussen
      2 August 24,   1995


                     Prepared by:                   Cleared by:

                  Agent:                VJ

  Name:



Signature &
   date:
                                 NATIONAL SCIENCE FOUNDATION
                                         1800 G STREET. N.W.
                                       WASHINGTON. D.C. 20550
            .~Ji:f
          ~Ost~
          J(}:rtJ'.
            OfFICE OF
        INSPEClORGENERAl




                                     SETTLEMENT AGREEMENT
                                           Recitals
            A.     TheMI Sci
                   and
                   NSF
                               to
                              enti
                                                                     'unlJllll
                   Undergraduates.
           B.      Dr. Dennis Rasmussen served as co-principal investigator on
                   those grants.
           C.      Dr. Rasmussen is not currently an applicant for a grant with
                   any agency of the federal government.
           D.      The Office of Inspector General WIG) has .issued an.
                   investigative report concerning the above-referenced grants.
           E.      NSF issued a notice of proposed debarment of Dr. Rasmussen
                   on August 24, 1990, and provided Dr. Rasmussen with an
    (              opportunity to respond.
           F.     Dr. Rasmussen read the OIG investigative report and NSF's
                  notice of proposed debarment carefully, submitted
                  information and argument in response to the proposed
                  debarment, and requested a hearing.
           G.      Dr. Rasmussen has chosen to proceed without benefit of legal
                  counsel.

                                          .agreement
                After careful evaluation, Dr. Rasmussen and NSF agree to
           settle this matter as follows:
           I.     Under the terms of the Governmentwide debarment regulations,
                  45 CFR part 620, Dr. Rasmussen bas decided to exclude
                  himself voluntarily rather than have a hearing.
           2.     Dr. Rasmussen will not be an applicant (principal
                  investigator or co-principal investifator) or be among the
                  s.enior, key, or supervisory personna on a ,grant, contract,
                  or cooperative agreement for scientific, mathematics, or
                  engineering research or education with any agency of the
                  Executive branch of the United States government until after
                  August 24, 1995, which is 5 years after the date of the· .. ·.
                  notice of proposed debarment.



,
I
  3.      Dr. Rasmussen will not serve as a reviewe~ on an NSF grant
          proposal until after August 24, 1995.
  4.       NSF will take no further action against Dr. Rasmussen in
          .this matter.

      This Agreement is entered into as of this day, February 21,
  1991. The Agreement will be considered null and void if it is




         f:-
 not executed by the Director of NSF on or before February 28,



~~~~
   991.



 Or. ennls~mussen
                                             2!f'-/jd~
                                        Asst. ~~ to Inspector-GeneraT


 ~'i~~<J~ 7-
       :n&                              National Science Foundation



 1                                      Director
                                        National Science Foundation
                                        Date:



      I, Dr. Rasmussen, have signed this agreement on a voluntary
 basis, without duress or coercion of any type. I read the
 agreement carefully, understand it, and have decided to proceed
 to sign the agreement without benefit of counsel.


~~,~>~~.
 ~enni5 Rasmussen
                                - '-'---



                              ~L! ~~l
                       (,<,;-=-_bQ.."
               t~t            5ig~      ~i
           '.,)
        J, ~   "Il- __ I  .        " attest that Dr. Rasmussen has
 advised me        @a nas           agreement on a voluntary




 =""'4 .
 basis, without duress or coercion of any type; that he has read
 the agreement carefully and understands it; and that he has
 decided 0 proceed to sign the agreement without benefit of
                             NATIONAL SCIENCE FOUNDATION
                                 WASHINGTON. D.C.   20550




                                              August 24, 1990


     Delivered By Hand




                            RE: NOTICE OF PROPOSED DEBARMENT;
                                TRANSMITTAL OF INVESTIGATIVE REPORT
     Dear Dr. Rasmussen:
     This letter and the attached Investigative Report serves as
     formal notice that the National Science Foundation (NSF) proposes
     to debar you from directly or indirectly obtaining the benefits
     of Federal research grants for a period of five years. A person
     who is debarred will be excluded during the period of debarment
     from Federal tinancial and nonfinancial assistance and benefits
     under nonprocurement Federal programs and activities. See 45 CFR
     620.110, 620.200. Debarment of an individual is effective'
     throughout the executive branch of the Federal Government.
'(   Reasons for Proposed Debarment
     NSF's decision to propose debarment is based upon a referral from
     our Office of Inspector General. The Foundation's current
     administrative record indicates that you engaged in a deliberate
     pattern of serious, sexual malfeasance and related acts while
     supervising teaching assistants and undergraduates in the conduct
     of research fU,nded by NSF. As documented in the attached
     Investigative Report, ten witnesses have described an extensive
     pattern of incidents from December 1988 to August 1989. Those
     incidents involve numerous sexual assaults and unwanted and
     unexpected sexual advances made by you against female students
     and teaching assistants working Under your supervision.
     In addition tq the alleged acts of sexual malfeasance, you
     apparently committed other distinct and identifiable offenses
     contrary to ,accepted scientific practice. For example, the
     Investigative Report indicates that you threatened your
     subordinates with damage to their careers if they revealed your
     sexual misbehavior, and that you withheld data and assistance
     from students for the purpose of personal sexual advantage.
                                      to
                                to you
                             ed "Re"'''H,.,,,h
     Undergraduates (REU)." ,(NSF grants
fundamental purpose of the REU program is to encourage
undergraduates ~- in particular women undergraduates -- to enter
into scientific careers. The many acts of abuse of which you are
accused were directed against female teaching assistants and
undergraduates, and occurred in the context of, and were       ,
inseparable from, the scientific research conducted under the REU
grants. By your actions, as alleged, you seriously departed from
accepted research practices and undermined a basic purpose of the
R.EU program -- the mentors hip of potential young SCientists,
women in particular.
Regulatory Basis for Proposed Debarment
Under NSF's regUlations, "misconduct" is defined to include a
"serious deviation from accepted practices in ••• carrying out
.;. research." 45 CFR 689.1(a). When misconduct is serious,
deliberate, and part of a pattern instead of an isolated event,
debarment from Federal financial assistance is an appropriate
remedy. See 45 CFR 689.2(a)(3,), 689.2(b). Debarment is also
appropriate for any "cause of so serious a nature that 'it affects
the present responsibility of a person." 45 CFR 620.305(d).
Debarment must be for a period commensurate with the seriousness
of the cause. 45 CFR 620.320(a). The burden of proof is on the
government to establish facts which justify debarment by a
preponderance of the evidence. 45 CFR 689.2(d), 620.3l4(c).
According to the Investigative Report, your many acts of abuse
directed against young women were perpetrated during the conduct
of research funded by NSF to encourage undergraduates (and
specifically women undergraduates) to enter into scientific
careers. Indeed, responsible mentorship of young students and
assistants is essential to the scientific process a't its core.
Because your actions, as alleged, were such an integral part of
the research supported by the NSF grants, they significantly
distorted the research experience, represented serious deviations
from acoepted practices, and served to eviscerate one of the
basic purposes of the NSF research program. Accordingly, we are
proposing a serious remedy, debarment, for a period of five
years.
Procedures Governing Proposed Debarment/Scientific Misconduct
Allegations
Under our regulations you have 30 days after rece.ipt of this
notice to submit -- in person, in writing, or through a
representative -- information and argument in opposition to the
proposed debarment. 45 CFR 620.313(a). During this 30-day
period you may also review the attached Investigative Report and
submit comments or rebuttal. ,45 CFR 689.8(c)(1), 689.1(e).
Comments submitted within the 30-day period will receive full
consideration and may lead to revision or withdrawal of the


                              -2-
I   "   ,-
                               ;"'
                               '.


             Investigative Report or of the recommended disposition. Id.
             Assuming you receive this letter on Monday, August 27, 1990, the
             30-day period expires on September 26, 1990.
             If we do not receive a response to this notice on or before
             September 26, 1990, the debarment will become final. Any
             response should be addressed to me at Office of the General
             Counsel, National Science Foundation, 1800 G Street, N.W.,
             Washington, DC 20550. For your information we are attaching a
             copy of the Foundation's regulations on Nonprocurement Debarment
             and Misconduct in Science and.Engineering. If you have any
             questions about the attached Investigative Report, please contact
                                 Counsel to the Inspector General, at (202)'
             357-9457.




                                                     " , 7?uL-ttJ\
                                                    Lawrence Rudolph
                                                    Acting General Counsel
             Attachments (2)




                                           -3-



             \ 1
                       INVESTXGATlVE REPORT--
              FINDINGS CONCERNING RESEARCH MISCONDUCT
                     BY DR. DENNIS R. RASMUSSEN



 BASIS FOR INVESTIGATION
On November 27, 1989 the Office of Inspector General (OIG)
received letters from two women who had served as graduate
teaching assistants during cour~es taught in the summer of 1989
   Dr. Dennis R.                  C011lrfleS   conducted under an
    crr~nL to                                    headquartered in
                                                  while directing
the courses Rasmussen had sexually             or harassed female
teaching assistants and students, had made threats of
professional blacklisting .against them, and had been intoxicated
when many of these acts took place.
 In December 1989, OIG began a preliminary inquiry into these
allegations undeJ; the NSF regulations regarding misconduct in
science and engineering (45 CFR 689). ~he inquiry revealed that
there was evidence to support the allegations and, moreover, that
sexual miSbehavior by Rasmussen appeared to be part of a pattern
of misoonduot in researoh.    We also learned that five teaching
assistants had reported the allegations mentioned above to
offioials about August 16, 1989, during the summer courses.
did not investigate the allegations, but did notify Rasmussen
that     was terminating its assooiation with him upon oompletion
of his work under the' NSF grant.       OIG determined that the
evidenoe warranted a full misoonduot investigation.     Since
did not oonduot a full investigation, OIG deoided to perform the
investigation itself, under authority of 45 CFR 689 and the
Inspeotor General Aot of 1978, as amended.
METHOD OF INVESTIGATION
Like the inquiry, the formal investigation was oonducted by a
Speoial Agent, Offioe of Internal Audit and Investigations, OIG.
It began in late April 1990.           interviews were oonduoted
to identify possible witnesses
interviewed in
                                        sworn         •
witness,                                provided a notarized
written statement.       Dr. Rasmussen, the subject of the
investigation, was also interviewed in ~, but deolined to
provide a written statement.


                               1
 BACKGROUND AND CHRONOLOGY'


                                                     In 1988
                                                  (Co-PI) on two
 successive NSF                                   The awards were
 made to _with                                        of ~ as
 Principal Investigator,                       another Co-PI. 1
Grants   liliiii and               weremade under the Research
 Experien~                         (REU)program.  The purpose of
REU awards, as stated        program Announcement (NSF 88-28), is
to provide active and meaningful research experience to
undergraduates in order to attract talented students to careers
in science, mathematics, and engineering. Through this program,
NSF is particularly interested in increasing the participation of
women, minority, and disabled students.




month.s... ~earch
_ _ state,
                              in_     They
                                     order     enable a number of
undergraduates to take part in field research during the summer
                                    the . study of . - .
                                       In both 198~
Rasmussen led the study teams as Senior Faculty Member on the
site.
A t · . . - students were supposed to' make observations, make
ten~atistical analyses of the data, write a preliminary
paper, and give an oral report. In the academic year following
the field course they were supposed to take independent study
courses at their home institutions, analyze and write up their
resul ts with Rasmussen's help, and write a paper based on their
research that they would submit for publication.
In 1988, two summer courses were given to a total of about· 30
undergraduate students; 10 of them received NSF scholarships and
all of the students benefited from NSF's support for the summer
program.   Rasmussen also gave a course for        students, not
supported by NSF, at the site in the winter of' 1988-89. In the
summer of 1989, two courses were given to 30 students, this time
including eight NSF scholarship students.        .
NSF funding for the 1988 and 1989 summer courses also covered
salaries for the PI and the two co-PI I s, including Rasmussen.


                  No. liliiii                  is listed as Dr.
                  In P~No.                 the Dean is Dr. ......

                               2
 Salaries were provided for art Associate Faculty Member and a
 ~stics assistant to accompany Rasmussen at the site.       However,
 . . . . did not send an Associate Faculty Member to the site in the
 summer of 1989.         Instead, Rasmussen was assisted by five
 graduate teaching assistants (TA'S), all of whom happened to be
 women.
AltlllCrant No.           provided funds for the faculty to fly
to          for the       1989 program Rasmussen chose to drive
wit    e A's in his pickup truck. According to testimony, this
was done for reasons of economy.    In December 1988, Rasmussen
also drove to 1IIIIIIII with one undergraduate student in
preparation for th~ course. Some of the major allegations
in this case have to do with Rasmussen's behavior during these
trips.
EVIDENTIARY FINDINGS
This section will discuss the specific findings OIG has made,
divided by subject area, on the basis of the evidence collected.
Attachments 1 through 5 are an integral part of this
presentation.   The next section will present OIG's conclusions
and evaluations based on these findings, and will discuss the
relevance of the findings to research mi~conduct.
Sexual Malfeasance Written statements and telephone interviews
document a pattern of incidents from December 1988 to August 1989
in which Rasmussen sexually assaulted or made unwanted and
unexpected sexual advances to female students or teaching
assistants working under his supervision. 2       Many of these
incidents occurred while Rasmussen was intoxicated.
Seventeen specific' incidents are listed and fully described in
Attachment 1.   Those numbered 13 and 16 are the only ones in
whlch the women involved participated voluntarily. In the other
cases, the women were subjected to unwanted and unexpected
physical assaults.
Two witnesses testified that Rasmussen sexually assaulted them
in the back of his truck (Incidents 1 and 12).       The first
incident           in December 1988 while driving to the field
site in            The stUdent invo1vlil!l(ssisting Rasmussen
with the           data under Grant            At the research
site, this student was subjected to ano er physical sexual
advance by Rasmussen (Incident 2).          .

     2Rasmussen also made remarks, accusations, and suggestions
of a sexual nature and was. not always decently dressed in front
of students, apparently intentionally.     In addition, he made
racist remarks to a black student.       Documentation for these
events is not provided here, but is available.
                                3
          Incidents 11-12 also occurred en route to the site in _
          this time in June 1989. During Incident 12, Rasmussen su~
          in having sexual intercourse without the co       the woman, an
          NSF-funded teaching assistant under Grant            After this
         attack she participated in a voluntary se          tionship with
         Rasmussen.      When she ended this relationship, Rasmussen
         threatened her with professional blackmail if she reported his'

                                                 lillY, .
         actions (See Attachment 3, Incident 2). The two forcible sexual
         contacts in December 1988 and June 1989 are separated by time,
         but in both situations Rasmussen acted            In both cases,
         while traveling to the field site in           Rasmussen trapped
         tl)e women in the back of his truck· anorcibly made contact
         with their sexual organs.      We have interviewed all of the
         witnesses involved, including Rasmussen and a third party who
         observed the act of intercourse in June 1989. We are confident
         that we can establish by a preponderance of the evidence that
         these acts did occur in the way the victims testified that they
         occurred.                                  .
         other w·i tnesses testified that Rasmussen sexually assaulted them
         and made unwanted and unexpected physical sexual advances. For
         example, Incidents 4 through 9, which took place in IIIIIIII from
         February through May 1989. All but Incident 8 invorve-stUdents
         who participated in the two summer programs supported by NSF.3
         These incidents evidence a pattern of unwanted and unexpected
         physical sexual advances by Rasmussen when he was alone with a
         woman.
    (
          Rasmussen also made physical sexual advances against students and
          teaching assistants who benefited from NSF funding for the summer
          courses in 1989.    Less than 48 hours after meeting a teaching
          assistant for ·the 1989 courses in June 1989, Rasmussen made a
        . physical sexual advance at his home after his wife and family had
          left the back garden. (Incident 10.)
        The l!lSt incidents listed, numbered 14 through 17, too.k place in
        August 1989, at the field site.    After the TA terminated ·their
        sexual relationship, Rasmussen again made advances toward her.
        Later he made an advance toward a student and made an unwanted
        sexual advance toward another TA.     on these occasions he was
        intoxicated.
        Rasmus.sen was interviewed on May 3, 1990 and was given the chance
        to refute the allegations known at that time. A summary of this
        interview is given in Attachment 2. It shows that he denied ever
        drinking tequila or being intoxicated.      With regard to sexual

             JIncident 8 involves an _employee.  While it does not
        concern NSF directly, it helps to illustrate a pattern of
        behavior on Rasmussen's part.
i                                       4
I
     behavior, his respon'ses were more ambiguous. He never admitted
     to any of the incidents and he denied several.     However, he
     occasionally refused to answer and once said only that all his
     relationships with staff and students were in good taste.    He
     blamed the students and TA' s for approaching him sexually and
     indicated that he was being persecuted and was the victim of a
     conspiracy.
     OIG has considered all the testimony and has determined that
     Rasmussen did in fact engage in an extensive pattern of sexual
     malfeasance involving students and TA's in connection with NSF
     awards. The nine sworn affidavits, the notarized statement, and
     the telephone conversations provide detailed and mutually
     s~pporting accounts of Rasmussen's malfeasance.  These statements
     were given voluntarily, most of them under oath, and with no
     expectation of personal benefit. On the other hand Rasmussen's
     statement is vague and inconsistent, and he refused to sign it.
    Specifically, seven witnesses state li!:asmussen consumed
    tequila and was intoxicated while in            in the summer of
    1989, while he denies it.        Ten wi nesses, plus telephone
    interviews, support the charges of sexual misbehavior, which·
    Rasmussen refuses to admit. His claims of being the victim of a
    conspiracy are refuted by the fact that some of the witnesses do
    not know each' other.     In spite of 'this, they testify to
    consistent patterns of behavior by Rasmussen from one incident to
    another.
    Most of the 17 incidents in Attachment 1 are characterized by
    Rasmussen exerting physical coercion on the women involved.
    There are other situations, as indicated below, Where Rasmussen
    used his control over the computer and the data to induce
    students to accept his sexual advances. Although they are less
    dramatic, these incidents of nonphysical sexual coercion are also
    central to this case. .
    Professional blackmail Four TA's have testified that during the
    1989 summer program Rasmussen threatened them with professional
    blacklisting in the _ _ community and with "academic
    sanctions" if they r~ sexual behavior with TA I sand
    students. Their testimony is excerpted in Attachment 3. 4
    Incidents 1 and 2 in the Attachment especially concern the TA who
    unwillingly had sexual intercourse with Rasmussen while traveling
    to the summer 1989 program. She was threatened in order to keep
    her from revealing this incident and her subsequent sexual

         4In addition, Incident 6 in Attachment 1 documents
    Rasmussen's threat to "make or break" the career of a stUdent in
    connection with one of his sexual advances.

I
                                   5
 relatio~ship   with Rasmussen.      Apparently Rasmussen was
 particularly worried about the TA' s reporting him, and accused
 them of being hired to spy on him.
 In his interview, Rasmussen denied having threatened the TA' s
 with academic sanctions and professional blacklisting. (See
 Attachment 2.)     OIG finds the detailed statements of four
 different TA's to be far more credible than Rasmussen's denial.
Favoritism and coercion through control over computer and data
At the site in the summer of 1988 and 1989, Rasmussen monopolized
the use of the computers on which data were collected and
analyzed. TA's and students did not receive all the training in
the use~computers for statistical analysis that was promised
in the . . . . proposal. Instead, they had to go to Rasmussen for
help. This delayed the work, took his time from other research
activities, . decreased the educational value of the program for
students and TA' s, and decreased student understanding of the
data. Attachment 4 illustrates this situation.
Rasmussen's control over the computer and the data also created
the opportunity for favoritism and sexual harassment.        Some
students were given more time on the computer and more assistance
with data analysis.    This reportedly happened especially with
more attractive female students.    These students were able to
finish sooner and had better final projects. On the other hand,
one student did not receive sufficient assistance in retrieving
and interpreting the data, so that she was not able to use some
pertinent data in writing her paper. tn order to keep some TA's
from reporting his sexual misbehavior, Rasmussen threatened to
keep the data from them. (See Attachment 3.)
Sexual harassment arose because female students who wanted access
to the data and the analytic programs on the computer were
subjected to sexual advances,. which they had to accept as a
condition for receiving Rasmussenis help.      Excerpts from the
affidavits describing this situatiop are given in Attachment 4.
These problems persisted after the summer sessions, when students
were supposed to receive Rasmussen's help in analyzing the data
in order to write publishable papers. One 1989 student in fact
never received the necessary data from Rasmussen.       Because of
problems in getting the data, some students failed to produce
their papers or produced them very late. One student complained
that· after the 1988 summer program Rasmussen limited her access
to the           the analytic programs, so that she was forced to
go to          to work with him.    Because of sexual advances he
made              was unable to complete her work at _ _ An
             was also unable to complete her. data analysis in
         because of Rasmussen's advances.    She had. to return to
        in 1989, after having already taken the 1988 program, in
       to get the needed help from Rasmussen without being alone
                                6
 with him again in         .   Attachment 4 also illustrates this
 situation.
 Harmful effects of experience on TA's and students            Dr.
'Rasmussen's behavior had a harmful effect on many of the students
 who participated in the 1988 and 1989 summer courses, as well as
 on the five TA's who served in 1989.      Most of the TA's have
 stated that they refuse to work with Rasmussen any further, and
 most are also refusing to work with the data. Several students
 from 1988 <lnd 1989 who had entered the project expecting to do
 follow-up research eventually dropped their projects because of
 Rasmussen's behavior as described above.
Some stUdents who did choose to complete' their follow-up work
with Rasmussen experienced delays and frustrations in their
attempts to obtain data and were subjected to his sexual
advances. In addition to the lost time, these students reported
that their experience with Rasmussen made it difficult for them
to cooperate with males in doing research in the field. The TA
with' whom Rasmussen had sexual intercourse without her consent
subsequently went into coUnseling.     She reports that she has
turned down research opportunities because of the fear of working
with males that she acquired through this experience.         See
Attachment 5 and also Attachment 4.
CONCWSIONS
OIG concludes that Dr. Dennis R. Rasmussen has committed serious
misconduct under 45 CFR 689. ,In support of this conclusion, we
hote the following points.

this case.    Most of the allegations involve the
program, which had support from NSF Grant No.
                                                     s:M
NSF has jurisdiction because NSF funding was directly involved in

Rasmussen and the TA's were directly supported by NSF, an
the students benefited because of NSF's support for the summer
program. Abuse ,of any student on a project with NSF support' is
equally serious.      In addition, all but one of the sexual
misbehavior incidents prior to the summer 1989 program involve
          who were . completing their work under NSF Grant No.
           ich was still in effect.
The evidence shows that the alleged events did take place.
Extensive documentation has been presented here, but more is
available.     Sworn testimony by numerous witnesses and
part,icipants shows a high degree of consistency, while
Rasmussen's rebuttals are unconvincing.  The preponderance of
evidence clearly is against Rasmussen.
We also note that the witness-participants have acted on their
beliefs in several instances. Students and TA's refused to work
with Rasmussen after the course, or refused to work with the
                               7
     data. This was at a cost to them, because it represented a lost
     opportunity to produce publications based on the data collected
     and thereby advance their careers.    For the students, it also
     involved the loss of part of their summer stipend. These people
     made their decision, and gave their testimony, because. of their
     belief that Rasmussen's behavior was unprofessional and
     intolerable and that because of his behavior the data produced at
     the site were of inferior quality.                .
    Rasmussen seriously failed to meet the objectives of the REP
    program. The review of REU by NSF's Office of Budget and Control
    states: "REU began operations in 1987... Intended to intervene
    in ·the trend of decreasing annual production of Ph.D. 's in
    science and engineering, REO was designed to give undergraduate
    students an opportunity to experience academic research first-
    hand and learn about graduate. school at a point during their
    study at whic~ they needed to make decisions about their future.
    From the beginning, REU emphasized the inclusion of women and
    minorities ••• as participants in REU awards." (NSF 90-58)
    Clearly the purpose of the program is to provide positive,
    enjoyable, and scientifically sound research experiences for the
    participants, especially women, in order to encourage them to
    take up careers in research. Common sense dictates that projects
    under this program should be overseen by someone who is not only
    an excellent researcher and teacher, but one who works well and
    responsibly with' young people and who can provide an excellent
    research atmosphere.
    In fact, some· good research and e d u c a t i M e r i e n M
    reported by some students under Grants              and
    However, there is ample evidence. that a n    er of stud
    TA's were subjected to bad experiences, in the course of their
    research and training and during their preparation for the
    program, that were directly the fault of Rasmussen. As a result
    of these experiences they received a thoroughly distorted
    impression of what. research is about, their career progress was
    slowed, some did' not finish their work under the NSF projects,
    and a few of the worst affected found themselves unable to
    participate freely in future research projects because of
    emotional trauma.
    Rasmussen particularly flouted the REU objective of attracting
    women into scientific careers. The abuse of female students and
    TA's is unacceptable in any NSF program, but especially in one
    with this objective.


    i~i~~~~~~~~~~~c~o p~o~ra:tli~on~.    ACiOol7cIing
                       field research courses
                                                              annual
                                                      undergraduates

(                                  8
 throughout the world, and its courses are accredited by many of
 this country's best universities.
  In its proposal No. _         applying for funding for the 1989
 summer program, ~             advertised its approach to research
 training for undergraduates.        The proposal states, in part:
  "    s experience has shown that' total immersion in subject
 material is a remarkably efficient and effective method for
 learning.    As such, we des!9.!l.. courses with several structural
 components in common. A l l " programs take place in isolated
 settings so that the distractions of modern day living (TV,
 alcohol, noise, etc.) cannot intrude on one's ,attention •
        iC program settings such as the rim around Lake . - in
          are chosen for their ability to inspire cur~and
•won er.    Faculty are selected not only for their academic and
 scientific credentials but also for their leadership ability,
 their sensitivity and concern for students, and their ability to
 be both a role model and mentor. A total immersion program such
 as ........ also facilitates collegial relationships between
 facu~ students as well as between stUdents...            The rugged
 and challenging settings of IIItprograms require cooperation in
data collection and analysis or else research grinds to a halt."
Eight years of operation have allowed IIIfto carefully refine the
structure and content ofllllprograms to ,the point where we truly
understand the dynamics ot:What makes a first rate field program.
The emotional state of stUdents must be monitored as they
progress. ••   This emotional development is paralleled by an
academic structure which seeks to 'move stUdents from a dependent
status as the program begins to a relatively independent status
as the'program ends."
Two, faculty and a teaching assistant are involved in the program
24 hours a day for 30 days.       This is not only a remarkable
commitment from our faculty but it is a un'ique' opportunity for
students to have access to faculty as well as come to know them
as people.    A great deal of informal but often tremendously
valuable learning comes from such close interaction."
The proposal also emphasizes repeatedly that students will be
taught the computing and statistical tools necessary for the
analysis of the data, including SPss/pc+, at the research site.
It states that after the summer session Rasmussen will help
students analyze the data base and that an attempt will be made
to accommodate                                        with Dr.
Rasmussen at' the                                  to finish up
data analyses or
The evidence shows that many students were not given the required
statistical and computer training.     For some of them, their
experience of the faculty was much, ,different from what the
proposal de'scribes.  They were kept dependent on Rasmussen for
                                9
 the use of the computer and the running of the software. Hence
 they were not allowed to advance to an independent status as the
 program progressed.     Instead, control over the data enabled
 Rasmussen" to employ favoritism and coercion in obtaining the
 sexual responses of female students.    These problems continued
 after the summer programs when Rasmussen did not make the data
 freely available, but instead used his control over the data to
 draw some female students to _              Again, he used the
 occasion to make sexual advances ~
  It is easy to conclude that students Were not protected from the
  distractions of alcohol, since Rasmussen occasionally drank to
  excess.   He did not show leadership ability when he failed to
  train TA's and had a sexual relationship with at least one, nor
  did he show sensitivity and concern for students. Through his
  blackmailing of TA' s he was not an acceptable role model or
  mentor".   His sexual harassment showed no concern for the
  emotional state of his students.     These requirements are not
  "icing on the cake," but represent points that          used n
  persuading NSF of the research and educational value of the
  program and its co~ity with REU objectives. They are also
  requirements that . . and NSF placed on Rasmussen as senior
. faculty member.
Rasmussen's misconduct was serious. deliberate. and habitual.
The many incidents of sexual activity show a pattern of abuse of
women. Rasmussen was'willing to use his advantage as a faculty
member to coax or coerce subordinates into complying with his
sexual- demands.  He overindulged in alcohol in work situations
where he was responsible for the instruction and well-being of
students. There is every reason to fear that this behavior would
be repeated if Rasmussen were ever again given the opportunity to
mentor the work of female students, particularly in isolated
situations.                    "                          .
Rasmussen's behavior fits the definition of research misconduct.
We do not maintain that sexual misbehavior by a researcher at a
research site should always be regarded as misconduct within the
definition of 45 eFR 689.    However, there are circumstances in
which sexual misbehavior is part of "other serious deviation from
accepted practices "in proposing, carrying out, or reporting
results from research", as mentioned in the definition. We hope
that sexually-related misconduct cases never become common enough
to be mentioned explicitly in the definition, but unfortunately
we have a case of that type here.
The salient featUre of this case is that Rasmussen made his
sexual activity and conversation an integral part of his
performance as an educator and research mentor. He made physical
sexual assaults using opportunities provided by his educational
and research duties; He manipulated the educational and research
environment so as to create opportunities for such assaults. He
                               10
 used his position of control over the computers and the data to
 induce students and TA's to accept his sexual advances or even to
 approach him.    It is not within "accepted practices" for a
 research mentor to use his or her position of authority to make
 demands of subordinates, such as sexual demands, that are
 unrelated to the research.
 The situation is aggravated-by the fact that at the research site
 Rasmus'sen was not only the senior faculty member but, in 1989,
 was the only faculty member. The women involved were relatively
 young undergraduates plus a group of five graduate students.
 They were particularly dependent on Rasmussen, partly for
 academic reasons in that they depended on him for instruction and
 data' and for their final grades, but also because he was in
 charge of the physical arrangements. The research was done at an
 isolated site in a foreign country, where students and TA's could
 not easily leave or obtain help from others. In this situation,
 Rasmussen's sexual activities had a particularly coercive
 character;
 In the course of these activities, Rasmussen committed many other
 distinct and identifiable offenses against accepted scientific
 practice. It is not accepted practice for a senior researcher to
 blackmail subordinates by threatening them with damage to their
 careers if they reveal his or her misconduct. It is not accepted
 practice for a researcher to withhold data and assistance from
 students, particularly when this is for the purpose of his or her
 personal sexual advantage. These incidents taken together show a
 pattern of ,failing to meet the requirements of training and
-research that represents a serious deviation from accepted
 research practices.




                                                 December 3, 1990




                               11
                             ATTACHMENT 1
                   INCIDENTS OF SEXUAL MISBEHAVIOR
  Sworn statements and telephone interviews document the following
  17 incidents of sexual misbehavior by Dr. Rasmussen. -Together
  they involve six students, three teaching assistants, and an ...,
  employee.    In two of these incidents the woman participated
 -volunatarily, but the rest involved an unwanted and unexpected
  physical attack by Rasmussen.    Other incidents, in which the
 women were coerced in a nonphysical way, are mentioned elsewhere
  in this report.
                     on a highway in          en route to the field
                       Rasmussen sexually assaulted student A.- At
                           was a student from the university of
                         a w y e d by           as Dr. Rasmussen I s
  ass                                 Dr. Rasmussen asked Student A
  to assist him in         an S        A ag~Dr. Rasmussen and
  student A were           from         to         in the Subj ect I s
_truck when they          to rest in the bac 0 the truck. In her
 sworn statement, Student A stated, "I was just starting to fall
 asleep when I felt Dennis roll up against me and put his arm
 around me. When Dennis did this, he trapped me between his body
 and some boxes that were in the back of-the truck. I asked him
 what he was doing and he responded that he was cold and needed my
 body heat.' He then started to rub my side and back, then fondle
 my breast. I asked him to stop and he would for a minute then-he
 would just- start back. up again.   I felt really trapped in that
 position and tried to get him to stop but he continued to fondle
 me and eventually stuck his hand down my pants. I was shocked at
 this and frightened because I was not sure what he would do next.
 I immediately squirmed-my arm free and knocked his hand out of my
 pants. I told Dennis that this would not work and I had to get
 some air."    Student A got out of the back of the truck and
 suggested that they continue to drive.      Later that night, Dr.
Rasmussen rented a two bed hotel room in _                      Dr.
Rasmussen then made a sexual advance towar~nt A by
demanding that student A give him a back rub and attempted-to get
 into bed with Student A. Student A persuaded Dr. Rasmussen to go
back to his bed without further incidents.
 2. January 1989, in I11III at the field site, Dr. Rasmussen was
 intoxicated and made ~ical sexual advance toward Student A.
 Student A stated, "Then one evening Dennis went into town to call
~nd his wife.        When Dennis returned- he was intoxicated and
~a bottle of tequila.      I had been working in the computer room
 when Dennis told me that he had to talk to me.       I thought he
wanted to talk about the course.      He said let I s go up to the
 tents because the students were -working in and around the
-computer room. Once up at the tents he placed his hands around
my shoulders and touched my inner thigh. He wanted us to go into
                                 12
     my tent but I refused.    Again I felt intimidated and afraid but
     rejected his advances."
     When describing these incidents, student A recalled, "These
     incidents made me feel threatened and insecure of myself because
     I didn't know why he would do this to me.      Dennis had been my
      en r, my teacher, and my supervisor through my employment with
            He had also been my friend and I had a close friendship
    •w th his wife, ...... and his two children. I trusted him and he
     violated that trust.    Dennis took advantage of his position as


                               ...-at
     mentor and friend. I think he used his position to intimidate me
     and to put me in a situation where I had little control."
     3.   February 1989, in              Dr. Rasmussen's office, Dr.
     Rasmussen tried to kiss stul!i!!student B was a student from
     the summer 1988, and was in        to work with Dr. Rasmussen on
     follow-up research with the ata base from the project.
     4. March 1989, in _        in Dr. Rasmussen's car, Dr. Rasmussen
     mad-e a sexual advan~rd student c. Student C was a student
     from the summer 1988 and went to _            to work with Dr.
    Rasmussen on follow-up research with~data base from the
    project. Student C stated that she went to            because Dr.
    Rasmussen- would not release by mail the data that she needed for
    her research and that she stayed with- Dr. Rasmussen and his
    family at his request.       Recalling this incident, Student C
    stated, "The second night I was there, Dr. Rasmussen and I were
    in his car and he was driving-fast around corners. Dr. Rasmussen
    would grab at my crotch 'while turning the corners.     I was not
    sure what he was doing so I positioned my purse beside me so he
    could not grab me. That day Dr. Rasmussen had told me that he-
    thought he would be getting a divorce and that night in the car
    he said that it had been a long time since he had sex."
     5.    March 1989, in _          at Dr. Rasmussen's office, Dr.
    Rasmussen made a phy~exual advance toward student c.
    Student C stated, "The third night in _          Dr. Rasmussen and
    I were working with the data in his ~when Dr. Rasmussen
    tried to fondle me. Dr. Rasmussen-started to rub my upper leg so
    I crossed my legs. He then put his arm around me and tried to
    pull me towards him. When I resisted, Dr. Rasmussen tried to put
    his hand down my blouse. Throughout this, I continued to talk
    about the data and moved away from him. When I did get away from
    him, Dr. Rasmussen slapped his own hand and asked where we were.
    I was very frighten ~ after 11:00 p.m. and we were
    totally alone in the~. Immediately after that, Dr.
                    d me that he was a very influential person in
                  and that he could make or break my career. I took
                   that my career could be advanced if I had sex with
    Dr. ll.asmussen or Dr. Rasmussen could hurt my career if I spoke
    about his sexual advance."

(                                  13
 6. March 1989, in ........atDr. Rasmussen's home, Dr. Rasmussen
 touched student C's~ against her will. This incident took
 place a couple of days after the previous incident. In her sworn
 statement, Student C said, "Dr. Rasmussen, his wife, children and
 I were watching a video. His wife and oldest son went into the
 kitchen to get ice cream. When his wife was out of the room, Dr.'
 Rasmussen started to rUb my back and slide his himd across my
 breast. I immediately got up, stated I was going to bed and left
 the room."
  7. April 1989, in          at Dr. Rasmussen's home, Dr. Rasmussen
  made a physical sexual advance toward an ~                     in
          for a presentation at the UniverSItY                  Dr.
  Rasmussen invited the •     Em~e to stay                   •   In
  recalling this incident, the ~ployee stated, "The night I
 was in ! ! W r . Rasmussen, his wife, children and I went out
  for pizza a      expense. Dennis and I each had one or two beers
 at the restaur t and when we returned to his home we each had
 another be      I was comfortable drinking the beers and talking
 about the      programs in the living room. His wife said that
 she was taking the kids up stairs to go to bed. After Dennis'
 wife and kids were up stairs, Dennis turned off the lights. , I
 asked him what he was doing and he said something like the lights
 were hurting his eyes., Dennis then came over to me, sat beside
 me, and put his arm around me. He started rubbing my back and
 shoulders and also started rubbing my leg. I knew that he was
 making a sexual advance and I pushed away from him but he held my
 leg. I immediately stood up and stated that I was going to bed."
 I went to my room and Dennis followed me. He asked if I needed
anything and I replied no, and closed the door. I could hear him
outside the door and in the hallway for several minutes. I felt
trapped but waited in the room until I heard him go upstairs. I
then went to the bathroom and immediately returned to my room.
Because I was not sure what Dennis would do and the bedroom door
would not lock, I could hardly sleep a't all that night.     Early
the next morning, I just wanted to leave and declined to have
breakfast. When I left his hOUse, Dennis followed me to my car
and told me that it was too difficult to give me directions and
would ride with me for a few blocks. He did and when I stopped
the car to let him out, he hugged me and kissed me on the lips.
I turned my head and said goodby. I just wanted him out of the
car."
8. ' May 1989, in ........ at Dr. Rasmussen's office, Dr. Rasmussen
grabbed and kiSS~EIi!! Student 0 was a NSF Scholarship
student        .     No.          from the summer 1988. student D
went to            at Dr.    asmussen's reqUest to work with Dr.
Rasmussen          data base for her research paper, which was
required as part of the NSF Scholarship. After working with the
data, Dr. Rasmussen invited Student D back to his home for
dinner.    According to Student 0' s statement, "Dennis's wife
stayed with the kids in the kitchen while Dennis took me into the
                                14
     living room to eat. Dennis sat beside me on the couch and kept
     touching my shoulders and knees. A couple of times he touched my
     knee then slid his hand up my thigh. I was very anxious with his
     behavior and I had to get away from him.      I told him that my
     friends were waiting for me and that I had to go."
                      continued: "Dennis then walked me back ~
                     so I could get my stuff.    While at the _
                     grabbed me and started kissing me. He caught me
                and frightened me. I froze and just did not react at
     all. This made him stop and he let me go. I told him that I had
     to leave and left immediatel                   upset me so deeply
     that I cried when I left the
    10. June 1989, in          at Dr. Rasmussen's home, Dr. Rasmussen
    sexually assaulted TA#l. TAil was one of the five TAs who worked
    for      with Dr. Rasmussen during the 1989 courses funded by
    Grant No 8900880.   TAil met Dr.            ,in _        to travel
    together to the field site in                   In her notarized
    statement, TAil stated, "On the                   of my arrival in
    the United states, Dr. Rasmussen bought a           of tequila and
    made margaritas.    We ate dinner with his family in the back
    garden. He became intoxicated. At the end of the evening on the
    way into the house he patted my bottom and slid his hand between
    my legs. This incident left me shocked,' disappointed and angry.
    I was shocked that a man who had hired me to work for him, who
    had only known me for less than 48 hours, with whom I had three
    months ahead in the field, would attempt such a thing."
           ne ~ile Dr. Rasmussen and the TAs were driving from
            to         Dr. Rasmussen sexually assaulted TA'#2. Early
    in the trip, r. asmussen and TA#2 were alone in the back of the
    truck while three other TAs were in the front of the truck. In
    her sworn statement TA#2 described this incident, "Dennis and I
    were just talking when Dennis tried to talk me into having sex
    with him right there in the back of the truck.         I politely
    refused his offer several' t,imes hoping to end the matter and not
    make future situations with Dennis uncomfortable.      This was a
    mistake, as he then crawled on top of me and tried to physically
    force me to kiss him. Fortunately, at this point, the driver of
    the truck pulled off the highway and Dennis stopped his advance."

    12. June 1989, while Dr.               and the TAs were traveling
    through         en route to             Dr. Rasmussen had sexual
    intercourse with TA#2 against           • In her sworn statement,
    TA#2 stated, "We were reall~ from drinking coffee and
    driving straight through from IIIIIIIfso.Dennis suggested that we
    drink some beer to help us sleep. Dennis, (TA#3), and I drank a
    few beers and talked and laughed while in the back of the truck.
    After a while we decided to go to sleep. I felt safe with (TA#3)
    back there with Dennis and me.      Minutes later, I felt Dennis
I                                  15
moving around then he put his arms around me and pressed his body
against mine. I resisted his sexual advances by trying to remove
his arms and pushing him away.     I was quietly trying to stop
Dennis without waking (TA#3). He ignored my resistance and held
my arms down and pressed me against the cab window. After he had
me trapped, Dennis pulled up my skirt, pulled my underwear to the
side, and forced his penis inside of me.    This all happened so
quickly that I was shocked. I didn't even know that Dennis had
his penis out of his pants.        I couldn't believe this was
happening and just froze. Dennis is very strong and held me so
that I couldn't move. I didn't know what to do so I just froze.
I did not yell or scream. I just hoped that (TA#3) and the other
TAs did not know what was happening to me. I was so embarrassed
because I just met these people.     I remember looking out the
window crying, thinking that this would end, It seemed like it
went on for ever but it did end quickly.         After it ended,
everyone just laid there while we continued to drive.       I was
devastated and extremely embarrassed.   I felt really stupid and
it just really freaked me out. I just tried to ignore it. I was
incapable of addressing what had just happened to me. I refused
to admit that Dennis raped me.     He forcibly had sex with me
without my consent but I couldn't bring myself to acknowledge
this at that time. I think I was in some kind of shockon
While describing the incident, TA#3, who witnessed this incident,
stated, nDennis was in the middle between (TA#2) and I when we
settled to take a nap.      Both (TA#2) and I had our backs to
Dennis.   About.five minutes later, I felt movement and turned
over to see Dennis having intercourse with (TA#2). I was shocked
and angry but had no idea what to do.      (TA#2) was still lying
with her back to Dennis and was totally unresponsive to what was
happening to her. w 5
13.   June and July 1989, in            at the field site, Dr.
Rasmussen actively pursued and had a consensual sexual
relationship with TA#2.     Dr. Rasmussen was in a position of
supervision over TA#2. In addition, Dr. Rasmussen told TA#2 that
he was going to leave his wife and that he wanted TA#2 and
himself to be a couple and do great research together.      When
describing the relationship, TA#2 said, nI think that I
participated in the relationship just to try to persuade myself
that I had not been raped."



       The witness statements which describe this incident are
detailed and mutually supporting. In addition, this incident is
strikingly similar in method and location to the way in which
Rasmussen attempted to force himself upon another witness six
months earlier, adding further force to the probity of this
testimony. (See Incident 1.)
14. August 1989, in I11III at the field site. After TA#2 ended
the sexual relation~with Dr. Rasmussen, Dr. Rasmussen
threatened TA#2 and made two sexual advances toward her. In her
sworn statement, TA#2 stated, "Dennis also came into my tent
twice at 4: 30 in the morning, after my        mate, (TAjj3), had
gone to the island.    Both times                me by insisting
that I.would never work again in            if I didn't tell the
right story. The first time he            me he had a crazy look
in his eyes and he yelled at me until I was crying hysterically.
I was terribly frightened and feared that he would physically
harm me. After he got me hysterical, he made a sexual advance
towards me, but I was crying so hard that he just stopped and
left the tent. The second time he threatened me,. I stood up in
my tent and screamed at him to leave after he again tried to
forcibly have sex with me."
 15.    August 15, 1989, in _ _ Dr. Rasmussen was
 intoxicated and made a physi~~ce toward student E.
 After the generators at the field site broke down, Dr. Rasmussen
 moved most of the students and TA#4 to town so the students could
 finish their end of' course papers.     Dr. Rasmussen rented two
 rooms.   All the beds were pushed together in one room and the
computers were placed in the second room.       Student E stated,
 "That night I had been working on my paper in the computer room.
Dennis was out on the balcony with some 'of the students drinking
shots of tequila. I finished my paper late and went to bed. All
the bedS were pushed together and I got into bed beside another
girl. I was only in bed a couple of minutes when Dennis came in
and got in bed beside me.      Dennis put his arm around me and
started rubbing my back and playing with my hair. I took this as
a sexual advance and asked him what. he was doing.      He didn't
respond to my question so I got out of bed and returned to the
computer room. He didn't say anything to me when I left. It was
very late and other people were still working on their papers so
I just stayed up the rest of the night. The next morning I saw
Dennis and an older student, (student F), asleep holding each
other. A lot of other people saw Dennis and (Student F) together
and.were talking about them." Student E reported Dr. Rasmussen's
sexual advance to the. TAs.
16. August 15, 1989, in IIIIIIIIIIIIIII Dr.' Rasmussen had some
sexual activity, but nO~Mth student F, a NSF
Scholarship student under Grant No           After being rejected
by student E, Dr. Rasmussen moved ne    0  tudent F, who was also
in bed and somewhat receptive to his advances. TA#4 and several
students witnessed Dr. Rasmussen and student F sleeping together
and lying in a huddle during the night and the next morning.
In her sworn statement, TA#4 stated, "(student F) stated that she
enjoyed the sexual activity with Rasmussen and that Rasmussen had
told her she would earn the highest grade in the course.
(Student F)'S academic achievements were indeed commendable, but
                               17
 in my opinion, several of the other students deserved higher
 grades on the basis of their performanc.es on exams, on individual
 research projects, and in the field." A review of ~ecords
 show that Dr. Rasmussen did give student F the highest grade in
 that class.
 TA#1 confronted Dr.·Rasmussen after she had learned of his sexual
 advances toward Student E· and Student F.       In her notarized
 statement, TAU stated, "Once again, I was furious with Dr.
 Rasmussen and immediately approached him with the two incidents.
 He replied that these students were his friends and besides, that
 he could have relationships with students if he wanted to,
 pointing out that he married a student. I told him that he left
 me no choice but to report him and that if he could at least
 realize that he was hurtin~ people."         .
   17.   August 16, 1989, in _ _ Dr. Rasmussen made a
   sexual advance toward TA#~ ~s were told about Dr.
   Rasmussen's" behavior of the previous night, they called       to
   report Dr. Rasmussen's behavior and moved all the female students
   to a separate hotel. That night, TA#5 went back to the computer
   room to insure that no students were left behind before going to
  dinner.    In her sworn· statement, TA#5 stated, "I found Dennis
  drunk in the hallway.       Dennis pushed and coaxed me onto the
  balcony where there was a shot glass ·and a bottle of tequila
  that was almost empty. I later heard that he had been drinking
. shots in front· of everyone following the completion of the
  students' oral presentations. Dennis said that he wanted to have
  a drink with me and I told him that we were taking. the students
  out to dinner and that he should join us. Dennis held up a piece
  of cheese and said that he and I should go up on the roof alone
  and drink beer and eat the cheese. He put his arm around me and
  said that even though we had trouble with each other over the
  summer that we were a lot alike and could do great research
  together.    He ·was rubbing my shoulder and I knew .that he was
  making a sexual advance toward me. I was concerned for my well
  being because we were alone and he is much bigger than I." Dr.
  Rasmussen would not .let TAj/5 go ilntil TA#3 found them on the
 balcony and removed TA#5 from the situation.




                                18
                           ATTACHMENT 2
                         SUBJECT INTERVIEW




I then asked Dr. Rasmussen if he ever used his position or
authority to develop a relationship with students or teaching
assistants. Dr. Rasmussen claimed that he always did everything
he could to impress students and staff that he did not use power
to develop relationships. Dr. Rasmussen stated, "I can honestly
say that I never used my position to d·evelcip a relationship with
student or staff."     I then asked if he would give a sworn
statement to this.    Dr. Rasmussen Responded, "I would give a
sworn statement to this.   I have never used power in this way,
except knowledge. Knowledge is power."
I asked Dr. Rasmussen why someone would say that he had sexual
r.elations with them.   Dr. Rasmussen responded, "There have been
students and staff who came on to me but I always rejected their
advances. I had a student come up to me and say, 'I want to fuck
your eyes out,' but I always had to stop this. Life was complex
enough in the field to add this."
I then aSked Dr. Rasmussen if he had a sexual relationship with
(TA#2).  Dr. Rasmussen responded, HI don't need to answer that
                               19
 question." Jllfked i f he had sex with (TM2) in the truck on
 the way to          and Dr. Rasmussen again refused to' answer,
 saying tha       e question was covered under his previous
 statement. I then asked Dr. Rasmussen if he raped (TA#2). Dr.
 Rasmussen laughed, then said, "Absolutely not."      I told Dr.
 Rasmussen that (TA#2) had provided a sworn statement saying that
 he did rape her. Dr. Rasmussen said that (TAH2)'s statement was
 a lie.                                .
 I then asked Dr. Rasmussen if he made a sexual advance toward
 (Student D), an NSF student from 1988, who came to his office to
 work on the field data.     Dr. Rasmussen denied making a sexual
 advance toward Student D. I explained that Student 0 had signed'
 a sworn statement in which she stated that Dr. Rasmussen had
 grabbed her and kissed her.     Dr. RasmUSSen denied grabbing or
 kissing Student 0 and stated that her statement was incorrect.
Next, I asked Dr. Rasmussen if he' ever made a sexual advance
toward Student A. Dr. Rasmussen denied making a sexual advance
toward Student A.    When I told Dr. Rasmussen that Student A
provided a sworn                    that he sexually assaulted
her during their               and that he made sexual advances
toward her While in            Rasmussen said, "I like (student
A) but not t h a t .           A) was the student who said she
wanted to fuck my eyes out.   I did not make a sexual advance
towards her." Dr. Rasmussen added, "(Student A) is a bit of an
alcoholic. She came to my tent'drunk as a skunk 'and said these
things to me."
 I then asked Dr. Rasmussen if he made sexual advances toward
Students E and Student F.      Dr. Rasmussen denied making these
sexual advances. I asked Dr. Rasmussen if he             drinking
tequila at the end of the c;ourse while in                and Dr.
Rasmussen again denied drinking tequila.    I
that Student E gave me a sworn statement that stated she
witnessed him drinking tequila and that Dr. Rasmussen made sexual
advances toward her. I added that TA#4, who stated that she was
treated fairly and as a colleague by Dr. Rasmussen, stated in her
sworn statement that she had witnessed Dr. Rasmussen drink
tequila on that night and saw him and Student F sleeping and
holding each other the next morning. Dr. Rasmussen still denied
that these things took place.
Dr. Rasmussen denied threatening the TAs with academic sanctions
or professional blacklisting. When I asked Dr. Rasmussen why all
these people would give statements against him, Dr. Rasmussen
responded, "I was the person being taken advantage of during 89.
The TA's ganged up on me. 'I needed another person to act as an
authority figure.   I needed another professional person there
with me for my protection."


                               20
Dr. Rasmussen then began to ramble on that he was the victim a'nd
people were out to get him.    He stated that he was the one who
needed to be protected and that he was being ganged up on. When
I asked him what he meant by this, Dr. Rasmussen responded that
some of the people involved in the 89 courses were not what they
claimed ,to be. I then asked Dr. Rasmussen what he thought these
people were. He responded that they might have been CIA or FBI.
I asked him if he was talking about the students and the TAs.
Dr. Rasmussen responded yes and added that there were bigger
things going on there then just science and education.          I
attempted to get Dr. Rasmussen to elaborate on this. He refused
to elaborate but added things are not what they seem because
those organizations (CIA and FBI) are always interested in what
scientists are doing. When I started to write these statements,
Dr. Rasmussen stopped me. He said that he didn't think I should
write these things down and he didn't want them in his statement.
I then asked Dr. Rasmussen if he would like to use my six pages
of notes as his statement since he had already agreed to the
contents of the notes.    I then let Dr. Rasmussen read the six
pages of notes. Dr. Rasmussen did not make any changes to the
notes but refused to sign the statement. He did request and I
allowed him to keep a photocopy of the six pages of notes.




                              21
                             ATTACHMENT 3
                  INCIDENTS OF PROFESSIONAL BLACKMAIL
 In sworn     statements by TA#2, TAi3, TAR5, and the notarized
 statement   by TAil, it is documented that Dr. Rasmussen threatened
 these TAs   with professional blacklisting and academic sanctions,
 including   withholding the r~search data.
 1. 11;1 her notarized statement, TANl describes an incident when
 she confronted Dr. Rasmussen about his behavior, "I heard (TAN2)
 crying, so I went to her tent. She informed me that she had told
 Dr.' Rasmussen that she did not want to sleep with him anymore and
 that he had gotten extremely angry and called her a prostitute.
 He asked her if she was 'fucking' one of the - . n e n in town.
 He 'then said that she was just beginn~ career in
              and that he knew a lot of people so if she ever tried
 to stab him in the back, that he could 'bring her down so hard.'
This made me furious.      I immediately confronted Dr. Rasmussen
pointing out that this w,as blackmail.      I told him of aU the
cases I knew of when he had sexually harassed women and told him
that I wanted to report him. He said he wanted to get this all
sorted out before we returned to the united states. We went to
his tent and went through every incident.       He denied them all
except what he had done to me in -            saying that 'we were
friends ana we were having a partY~Old him that I thought
that he ha'd raped (TA#2). He said that their relationship had
been beautiful from' the start.     He compared their courtship to
that of the stickleback. When I said (TAi2) also felt that she
had been raped he 'wanted to talk to her so we went together to
her tent. He asked her if she wanted to have sex with him in the
back of the truck and she replied 'no'. He then got very angry
and said "if you think you have shit on me, man do I have shit on
you" and "don't expect for me to help you out if you go behind my
back."
2. TA#2 stated, "Near the end of the second Cd~ Demlis
frequently asked me if I was hired by the FBI, CIA, ..... and NSF
to monitor him in the field. Also, Dennis constantly accused, me
of sleeping with other men and women a,nd asked ,me if I was a
prostitute.   Dennis threatened me and other TAS with 'academic
sanctions' if we reported his actions to     or anYili1Jiline
                                                       else.    e
made it clear that, and I quote, 'he knew people in

iiiiM
 nd that e would have us 'blacklisted' among pro
            if we 'stabbed him in the back. Dennis told me that
    ou    never release the data to (TA#5) and that she would
never see the data. Dennis saw (TAN5) as an instigator."
3. TA#3 stated, "Dennis took each of the TAs aside to acouse us
of a ~ings. He told us that we would be blaoklisted
from ............,or would not be allowed to work with him or the
data. My first experienoe of this sort with Dennis lasted about
                                 22
 20 or 30 minutes. Oennis told me that he would make sure I would
 never work in                       again. The most memorable quote from
  enn'        during this was, 'YoU are trying to play the female
_               with me.       If you try to dominate me, you. will get
~ took this to mean that I would not get any work in
. . . . . . . . . . . or be allowed to use the data from the project. My
 impression of Dennis during this time, was that he was a
manipulative person who could not share knowledge for fear of
 losing control or power."
4. TANl and TAN5 confronted Dr. Rasmussen about se~al harassment
and Dr. Rasmussen threatened them. TAN5 stated, "we confronted
Dennis about the sexual harassment, oennis commented that women
were always coming on 'to him and he always has trouble with that.
             threatened us by saying that he 'knew' people in
~
 ennis
               I took this to mean that if we talked           his
   aV1or, he would try to blackball us out of




                                  23
                            ATTACHMENT 4
                 STATEMENTS REGARDING DATA CONTROL
 These sworn statements by TA's and students who took the summer
 courses illustrate the control that Rasmussen exerted over the
 research data that were .collected. They also illustrate how he
 used his control over the data to exert pressure on the students
 to accept his sexual advances.    These sexual incidents are in
 addition to those described in Attachment 1, and directly
 exemplify research mIsconduct.
1. In her sworn statement, Student E stated, "Dennis controlled
the data, I think that he was the only one who knew how to
retrieve. and analyze the data. He would pull the data up on the
screen then tell us to read the data. Sometimes he would leave
after bringing the data up and we couldn't interpret the data and
he· would[n't] be around. It would be a waste of time because we
couldn't understand what we had. He would often take his time
retrieving the data and ask us to go get him coffee or something
to drink. We were at his mercy when getting data for our papers.
All the charts and data that he would print out for me, I
couldn't understand.     The TAs couldn't understand the data
either. Dennis was so busy by the end of the course that I just
wrote my paper without using part of the data because I couldn't
consult with him."
 2. Student 0, an NSF student from. 1988 who returned toI11III
 1989 to finish her research, stated, "Dennis did help us past
                                                                in
 students complete our analysis of the data. This took about two
weeks.    Dennis controlled the data and would only work with us
when he had tim~. One of the female students from the past year
really monopolized Dennis' time during this.      This girl played
the flirt game with Dennis and Dennis spent a lot of time with
her. That's the way Dennis worked with the data, if you flirted
with him and let him touch you, you got more accomplished. since
I wanted to keep my distance from him, I did not compete for his
attention so I could get more computer time. It was really like
there was a competition for his attention and he was really high
on himself because of thi~ competition. Dennis would not let the
females work alone with the data because he was the only one who
knew how to use the computer program. It was like Dennis had us
on a string.    He would string us along, working a little here
then working more later. Dennis had total control of everything,
including who would go to town in his truck and he would use this
as a basis for displayirig his favoritism. Since there WaS many
more females that males, there'was this little game that you had
to be nice to Dennis."
3. student A, who worked for Dr. Rasmussen from February·1987 to
June 1989 .and was a student in the first _     course in 1989,
stated, "Dennis also controlled all access to any of the data.
                               24
 Dennis taught us how to up load the data into the system but
 never taught us how to use the statistical program to analyze
 the data. 'The way Dennis set things up, he was the only person
who could run the statistical analysis and he used this to
control who had access, to the data and how the data was used. I
worked with Dennis for over two years and he never taught me how
to run the statistical program. Dennis played favoritism toward
the prettier female students by spending more time working with
them on the computer.      By doing this Dennis neglected other
students and this affected their final paper and their overall
understanding 'of the research.     Most students noticed these
displays of favoritism and this was widely talked about during
the course.    One of the female students came to (TAU) and
expressed her concern over Dennis' sexual suggestions while
working on the computers, whioh placed her in an unoomfortable
situation as his student. Often in the oomputer room he would
touoh us females by rubbing our baoks and putting his hands on
our knees. This made a very. tense working environment and many
of the students would feel unoomfortable 'about working with
Dennis on the computers."
4. TAN5 stated, "Dennis was the only one who knew how to use the
oomputer system to analyze the data. Dennis showed everyone how
to use the computer but never took the time to teach anyone how
to use the computer for data analysis. 'As a result, all of the
students had to come to Dennis to analyze data for their papers.
The students did not analyze the data, Dennis did this for the
students and then gave the students the results.     Some of the
students oomplained that Dennis did not distribute his time
equally among all students."
 5. TA#4 stated, "Rasmussen oontrolled the d~ta onoe it went into
the, oomputer.    None of us,~e TAs, oould help the students
substantially in the analysis'of the data with the oomputer. We
did not have the time or experienoe to work with the analysis of
the data at the level Rasmussen oould. The negative aspect of
this is that Rasmussen oontrolled who spent time analyzing the
data and deoided whioh statistioal test were appropriate for each
student's projeot. Rasmussen would run the test and then print
out the results for the students. Rasmussen olearly spent more
time working with some students and less time with other
students. During the first course, Rasmussen spent an enormous
amount of time with a very attraotive female stu~ent. I did not
see any solioiting from this female student but it was very
apparent that Rasmussen deoided to spend a disproportionate
amount of time with this single student.      Rasmussen negleoted
other students who requested his assistanoe and continued to work
with this female student. The varying amounts of time Rasmussen
spent with different students affeoted the quality of individual
stud~nts' final proj eots ,in ways that were beyond the students I
control."

                               25
 In her sworn statement, TA'4 added, "Another aspect of inequality
 of time spent with students happened during the beginning of the
        £ourse. Several of ·Rasmussen's previous students came to
           to work with the data with Rasmussen. Rasmussen spent
            amounts of time with the data with these students to
 the exclusion of students participating and paying tuition for
 the second course.    One of his past female students solicited
 Rasmussen's help in a flirtatious manner and Rasmussen would
 immediately respond to her request, including once interrupting a
 lecture to assist this female student."
  6. TAi3 stated, "Also during this time, Dennis was to teach us
  how to use SPSS, the statistical package for the computers.
  Dennis did briefly show us the use of the computer but never
 really taught us how to use it.        He would not provide the
 students or us with material, such as the commands, to fully use
 the computer.   Whenever we had a problem. with the computer, we
 had to go to Dennis for help. Dennis would never teach us how to
 correct the problem, he would just do it for us. This slowed
 the process because everyone had to go to Dennis for work on the
 computer. By controlling access to the data through use of the
 computers, Dennis showed favoritism towards certain students by
 spending more time with some students while ignoring the needs of
 other stUdents. Several students spoke to us about the amount of
 time and attention that Dennis gave certciin students."
  "Dennis' favoritism towards certain students got worse during the
. second course.     Dennis especially gave a lot ~ttention
  towards students of his past courses who came to          to work
  with DenTlis on research. One of his past students,     na, would
  even interrupt Dennis' lectures for him to help her on the
  computers.    Dennis would leave the lecture and ~ct· the
  students who. he was supposed to be teaching to help IIIIJ Many
  of the students were angry because Dennis spent more time with
  past stUdents.    These students felt cneated by Dennis. During
  this second course, I noticed that Dennis spent more time with
  females who were receptive of his advances than with students who
 would not play his· ·flirtatious games.       Dennis continued to
 control access to the data based on his favoritism towards
 certain students."
7. TA,2 stated, "Dennis controlled the data.       The staff and
stUdents could input data into the computer but could not use the
computer to analyze the data. Dennis would never take the time
to sufficiently teach anyone how to use SPSS to analyze the data •.
Dennis spent all of his time at the computers. Dennis controlled
the data because he was the only one who could use the computer
to analyze the data, therefore, the students would nave to come
to him to work with the data.     The student would sit next to
Dennis as the computer while Dennis did the analysis.         The
student would never know what Dennis was doing. He would just do
the analysis then provide them with the results of the analysis."
                                26
 "Another way he controlled the data is that Dennis spent a
 disproportionate amount of time with some students while
neglecting others.    During the first course, Dennis spent an
enormous amount of time with (Name), a stUdent who Dennis said
was attractive.   Most students noticed this a~d complained, but
Dennis would ignore or deny these complaints. Another incident
when Dennis neglected stUdents was during tiliNe   se ond course.
Three of Dennis I past ~tudents came to                during the
break but did not startWOrking with· Dennis un 1       the second
course began.    Dennis completely ignored ·the students in the
second course and worked with the past         students on their
computer analysis.   Most of the students noticed this and made
comments.    This was extremely unfair to the students of the
second course who expected his participation and assistance.
Denni.s put a lot of pressure on students to start and complete
projects but would not be available a sufficient amount of the
time to complete the projects.      Often, the projects were of
unreasonable length in terms of the data analysi~."




                              27
                           ATTACHMENT 5
                   STATEMENTS REGARDING EFFECTS
                       ON STUDENTS AND TA' S

 1. Student 0, an NSF student from 1988, described the effects of
the project in her sworn statement.     " ••• This experience with
 Dennis gave me a very negative - feeling about research.        I
thought that ·you had to play games and flirt to get anything
accomplished in research.     Working with Dennis made it very
difficult for me to finish my NSF project and· took way too long
to complete because of him. Dennis was constantly revising the
ways to analyze the data for my idea but I didn't know what he
was do~ng. The course, especially collecting the data was a very
good educational experience but I do not think I learned anything
from working with Dennis after the course.      I had never had a
teacher make a sexual advance towards me before Dennis. Now I'm
much more guarded around male professors. I do not want to be
associated with Dennis' Rasmussen and would never work with him
again.     I'm afraid that by giving this statement, other
researchers will see me as some kind of trouble maker. I want to
give this statement because after hearing other female students
about what Dennis has done and after what he did to me, I do not
want any other female students to have' this kind of experience _
while working in education and research. It has been very hard
for me to come forward and talk about this."
 2. In her sworn statement, Student C described the effects of
working with Dr. Rasmussen, "My research was delayed an enormous
amount of time because of Dr, Rasmussen would not release the
data to me. If he would have released the data in 1988 and 1989
like he just d~e beginning of June 1990, I would have not
had to go to. ~ and be the subj ect of his sexual advances
and I would have completed my research long ago. By limiting my
access to the data, M rs.ussen had controlled my actions,
especially my'trip to          and the delay of my research. In
addition, Dr. Rasmussen at empted to use -the data and his
position as professor to influence me to have sex with him. The
experience of working with Dr. Rasmussen has made me leery of
working closely with other male researchers.     Finally, I feel
that Dr. Rasmussen's actions have hindered and delayed my
career."
3. In her sworn statement, TA,3 stated, "Because of Dr.
Rasmussen's completely inappropriate and unprofessional
behavN' refused to work with him or the data after returning
from          . The two things that I wanted to learn during the
projec,   at is the computer and statistical analysis, I did not
learn. In addition, this took up much valuable time that I could
have used more productively to advance my education and career.
This has also taken a great deal of my personal time and
                               28
 emotional energy since returning from _          This experience
 has made me more aware of s.exual harassm~ I feel that there
 is no place in the education and scientific environment for this
 type of behavior."
 4. TA#2, who asserted that Dr. Rasmussen raped her, stated,
 "Because of what had happened to me, and the completely
 unprofessional and inappropriate behavior of Dennis, and because
 of the complete lack of integrity in the data, I refused to have
 anything to do with the data and Dennis Rasmussen. Also because
 of this experience, I had to seek counselling when I returned to
........, This has affected my academic work during the past year
 because of my involvement. This has been very time consuming as
 well as mentally traumatic.     It has affected my professional
 career because I have been fearful to go into the field with
 other male researchers. I have passed up research opportunities
 because of my fears."




                              29
